UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1975
Justin Lee Sanders
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the Southern District of Iowa - Central
(4:20-cv-00141 -JA J)
JUDGMENT
Before GRUENDER, WOLLMAN, and GRASZ, Circuit Judges.
This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
June 30, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Case 4:20-cv-00141-JAJ Document 2 Filed 05/02/20 Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
CENTRAL DIVISION
JUSTIN LEE SANDERS,
No. 4:20cv00141-JAJ

Petitioner.
vs.

ORDER
UNITED STATES OF AMERICA,
Respondent.

This matter comes before the court pursuant to petitioner’s April 30, 2020 Motion
Under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct Sentence.

[Dkt. No, 1]

Pursuant to Rule 4 of the Rules Governing § 2255 Proceedings, the court conducts the
following initial review to determine whether the claim in the petition has arguable merit.
Finding that it does not, the court summarily dismisses the petition and denies a certificate
of appealability.
I.

Procedural History

On June 19, 2018 the grand jury for the Southern District of Iowa returned a one
count indictment charging the petitioner and another with possession with intent to
distribute fifty grams and more of actual methamphetamine.
(b)(1)(A).

21 U.S.C. § 841(a)(1),

On May 30, 2019, the petitioner pleaded guilty to the one count indictment.

At sentencing he was determined to be a career offender by reason of convictions in 2003
for possession of a precursor (pseudoephedrine) with intent to manufacture, in violation of
Iowa Code § 124.40 l(4)(b), conspiracy to manufacture and distribute methamphetamine
in 2004 in violation of 21 U.S.C. § 846, and possession of precursor (pseudoephedrine)
with intent to manufacture methamphetamine in 2013, again in violation of Iowa Code §
124.40 l(4)(b).

In his 2013 state court case, he was also guilty of possession lithium with

intent to manufacture.

Case 4:20-cv-00141-JAJ Document 2 Filed 05/02/20 Page 3 of 6

United States v. Apfel, 97 F.3d 1074, 1076 (8th Cir. 1996) (“Relief under 28 U.S.C. § 2255
is reserved for transgressions of constitutional rights and for a narrow range of injuries that
could not have been raised for the first time on direct appeal and, if uncorrected, would
result in a complete miscarriage of justice.”) (citing Poor Thunder v. United States, 810
F.2d 817, 821 (8th Cir. 1987)).

A § 2255 claim is a collateral challenge and not

interchangeable for a direct appeal, see United States v. Frady, 456 U.S. 152, 165 (1982),
and an error that could be reversed on direct appeal “will not necessarily support a collateral
attack on a final judgment.”

Id.

C. Ineffective Assistance of Counsel Standard
The Sixth Amendment right to counsel exists “in order to protect the fundamental
right to a fair trial.”

Strickland v. Washington, 466 U.S. 668, 684 (1984).

The United

States Supreme Court reformulated the Strickland test for constitutionally ineffective
assistance of counsel in Lockhart v. Fretwell:
[T]he right to effective assistance of counsel is recognized not
for its own sake, but because of the effect it has on the ability
of the accused to receive a fair trial. Absent some effect of
challenged conduct on the reliability of the trial process, the
Sixth Amendment guarantee is generally not implicated.
506 U.S. 364, 369 (1993) {quoting United States v. Cronic, 466 U.S. 648, 658 (1984)).
The Eighth Circuit Court of Appeals applies the Lockhart test:
Counsel is constitutionally ineffective . . when: (1) counsel’s
representation falls below an objective standard of
reasonableness; and (2) the errors are so prejudicial that the
adversarial balance between defense and prosecution is upset,
and the verdict is rendered suspect.
English v. United States, 998 F.2d 609, 613 (8th Cir. 1993) (citing Lockhart, 506 U.S. at
364).

Where conduct has not prejudiced the movant, the court need not address the

reasonableness of that conduct.

United States v. Williams, 994 F.2d 1287, 1291 (8th Cir.

1993); Siers v. Weber, 259 F.3d 969, 984 (8th Cir. 2001) (citing Strickland, 466 U.S. at
3

Case 4:20-cv-00141-JAJ Document 2 Filed 05/02/20 Page 5 of 6

reasonable jurist would find the district court ruling on the constitutional claim debatable
or wrong.

Winfield v. Roper, 460 F.3d 1026, 1040 (8th Cir. 2006) (citing Tennard v.

Dretke, 542 U.S. 274, 276, 124 S.Ct. 2562, 159 L.Ed.2d 384 (2004)); see also Randolph v.
Kemna, 276 F.3d 401,403 (8th Cir. 2002) (“the petitioner must ‘demonstrate that the issues
are debatable among jurists of reason; that a court could resolve the issues [in a different
manner]; or that the questions are adequate to deserve encouragement to proceed further.”’
(quoting Barefoot v. Estelle, 463 U.S. 880, 893 n.l, 103 S.Ct. 3383, 77 L.Ed.2d 1090
(1983)) (alteration in original)).
presented.

A “substantial showing” must be made for each issue

See Parkus v. Bowersox, 157 F.3d 1136, 1140 (8th Cir. 1998).

The

certificate of appeal will then contain “an overview of the claims in the habeas petition and
a general assessment of their merits.”

Miller-el v. Cockrellu, 537 U.S. 322, 336 (2003).

“This threshold inquiry does not require full consideration of the factual or legal bases
adduced in support of the claims.

In fact, the statute forbids it.”

Id.

Thus, a district

court may issue a certificate of appeal even if the court is not certain that “the appeal will
succeed... [because a certificate of appealability] will issue in some instances where there
is no certainty of ultimate relief.”

Id. at 336-37 (citing Slack v. McDaniel, 539 U.S. 473,

120 S.Ct. 1595, 146 L.Ed.2d 542 (2000)).
Here, petitioner cannot show that reasonable jurists would disagree or debate
whether the issues presented should have had a different outcome, and whether the issues
are adequate to deserve encouragement to proceed further.
n.4.

See Barefoot, 463 U.S. at 893

The court denies a certificate of appealability.
IV.

Conclusion

The court finds that petitioner is not entitled to relief pursuant to 28 U.S.C. § 2255.
Upon the foregoing,
IT IS ORDERED that the petitioner’s April 30, 2020 Petition for Writ of Habeas
Corpus [Dkt. No. 1] is dismissed in its entirety.
in favor of the respondent.
5

The Clerk of Court shall enter judgment

■b

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1975
Justin Lee Sanders
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the Southern District of Iowa - Central
(4:20-cv-00141 - JA J)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
August 07, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

